No. 20-5111

IN THE
SUPREME COURT OF THE UNITED STATES

JAMES EARVIN SANDERS

Petitioner

vs .
LORIE DAVIS, Director, TDCJ-CID--Respondent

PROOF OF SERVICE
I, James Earvin Sanders, do swear or declare that on this date,
August 9, 2020, as required by Supreme Court Rule 29 I have served
the enclosed SUPPLEMENTAL BRIEF to the above-numbered PETITION FOR
WRIT OF CERTIORARI by depositing an envelope containing the above
document in the United States mail properly addressed to them with
first-class postage pre-paid to:
Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
Please be informed that Proof of Service for the Petition itself
was mistakenly made on David O'Toole, Eastern District of Texas,
101 E. Pecan Street, Room 216, Sherman, Texas 75090-0000, and then
forwarded to the Fifth Circuit, for some reason.
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on August 9, 2020.

James Earvin Sanders
5

SANDERS
12-B-19

ATTACHMENT A

Martinez v. Ryan x
132 S.Ct. 1309
Trevino v. Thaler.
133 S.Ct. 1911 (2013)
Buck v. Davis,
137 S.Ct 173 (2017)
ยง9.01(3)
Texas Penal Code
Deadly Force
ยง9.31
Texas Penal Code
Self Defense

1579328
8-6-20

Original to Law Library on 8-6-20; Copy to my records
v On Tuesday, August 4, 2020, I turned in my legal material along with
a request for (3) three cases, but I ONLY received (1) one of the (3) three.
Does the Allred Unit Law Library have the following cases:
1) Trevino v. Thaler, 133 S.Ct. 1911, 1921 (2013); and
2) Buck v. Davis, 137 S.Ct. 173 (2017).
Please respond as these cases are of extreme importance to roy appeal.
I assume if the entries were wrong, and a different case was under these
numbers, then I would've received those, but I didn't receive anything.
Thank You.
JA (Allred)
#1579328
James E. Sanders
12-B-19
ATTACHMENT B

